        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's $700
Million Smart Grid Demonstration
Program Funded through the
American Recovery and
Reinvestment Act of 2009




OAS-RA-13-08                     January 2013
                                 Department of Energy
                                   Washington, DC 20585
                                        January 17, 2013

MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's $700
                         Million Smart Grid Demonstration Program Funded through the American
                         Recovery and Reinvestment Act of 2009"

INTRODUCTION AND OBJECTIVE

The Department of Energy's Office of Electricity Delivery and Energy Reliability received about
$4.5 billion under the American Recovery and Reinvestment Act of 2009 to enhance the
reliability and resilience of the Nation's power grid, or nearly 33 times the amount appropriated
in Fiscal Year 2009. Of the amount awarded, the Department allocated nearly $700 million to
the Smart Grid Demonstration Program (Program) to fund 32 regional demonstrations and
energy storage projects. The Program also provided supplemental Recovery Act funding to 10
existing Department projects for renewable and distributed systems integration and high
temperature superconductivity. The projects were intended to demonstrate and further the
advancement of the "smart grid," promoting innovative grid technologies. The Department
awarded Recovery Act funding through cooperative agreements to both for-profit and non-profit
entities.

Because of the dramatic increase in funding and the national importance of modernizing the
Nation's power grid, we initiated this audit to determine whether the Program had been properly
managed. This audit report is the second in a series of reports on the Department's Smart Grid
efforts. Our January 2012 report, The Department's Management of the Smart Grid Investment
Grant Program (OAS-RA-12-04, January 2012), on a separate Smart Grid grant program,
identified several opportunities to enhance the management of the Department's Smart Grid
efforts. Specifically, the audit identified weaknesses in financial management and incomplete
and insufficient cyber security plans, potentially jeopardizing achievement of Recovery Act
goals.

RESULTS OF AUDIT

We found the Department had not always managed the Program effectively and efficiently. Our
review of 11 projects, awarded $279 million in Recovery Act funding and $10 million in non-
Recovery Act funding, identified weaknesses in reimbursement requests, cost-share
contributions, and coordination efforts with another Department program. These issues resulted
in about $12.3 million in questioned costs.
                                                 2


Specifically, the Department had:

    •   Approved reimbursements totaling about $12.3 million that lacked supporting
        documentation necessary to verify that costs were incurred and were reasonable.
        Contrary to award terms and conditions, the Department reimbursed two recipients for
        claims based on estimated rather than actual costs, resulting in overpayments of
        approximately $9.9 million. A third recipient received nearly $2.4 million without
        providing adequate supporting documentation. In fact, the recipient had not begun
        manufacturing the energy storage units called for by the award.

    •   Not always ensured recipients contributed their agreed-upon share of project costs.
        For example, the Department erroneously approved one recipient's plan to use about
        $28 million in expected proceeds from the sale of an energy storage unit manufactured
        in part with Federal funds and previous recipient contributions to meet its overall
        $32.7 million cost-share requirement. Federal regulations specifically prohibit using
        Federal funds and previous recipient contributions toward meeting cost-share
        requirements.

    •   Awarded a recipient $14 million for a project even though the recipient had received
        $2 million under the Advanced Research Projects Agency – Energy (ARPA-E) Program
        for similar work. In fact, the recipient, unknown to the Department until our audit, had
        reported the same accomplishments under both awards.

Although the Program had established procedures over financial reviews of projects, the
problems we identified occurred, in part, because it had not adequately reviewed financial
transactions and planned for or monitored recipient cost-share provisions.

After being presented with the results of our audit, the Department initiated actions to resolve the
$12.3 million in questioned costs we discovered. Specifically, Department officials reported that
one recipient was making adjustments to address issues with reimbursements made based on
estimated versus actual costs. Additionally, the Department was taking action to resolve
unsupported costs and the associated cost-share contributions, including requiring payment of
corresponding interest owed. The Department also stated one recipient had returned funds
improperly claimed for incomplete energy storage units. Furthermore, ARPA-E officials
required the recipient with potentially overlapping projects to differentiate specific
accomplishments and informed us they would take proactive measures to eliminate any potential
overlap, or the appearance thereof, between the ARPA-E and Smart Grid Demonstration
projects.

Given the infusion of Recovery Act funding, the Program has a unique opportunity to improve
the Nation's power grid. In total, we questioned about $12.3 million in costs claimed by
recipients. In the absence of significant improvements, the Program is at risk of not meeting its
objectives and has an increased risk of fraud, waste and abuse. Accordingly, we made
recommendations to the Department to improve the management of the Program.
                                                3


MANAGEMENT REACTION

Management concurred with the report's recommendations and indicated that corrective actions
have been or would be initiated. However, management expressed concerns with several
conclusions in our report. Management's comments and our responses to its concerns are
summarized in the body of our report. Management's comments are included in their entirety in
Appendix 3.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary of Energy
    Assistant Secretary for Electricity Delivery and Energy Reliability
    Chief of Staff




                                                3
REPORT ON THE DEPARTMENT OF ENERGY'S $700 MILLION SMART
GRID DEMONSTRATION PROGRAM FUNDED THROUGH THE
AMERICAN RECOVERY AND REINVESTMENT ACT OF 2009


TABLE OF
CONTENTS


Smart Grid Demonstration Program

Details of Finding .......................................................................................................................... 1

Recommendations and Comments ................................................................................................. 6


Appendices

1.    Objective, Scope and Methodology ....................................................................................... 8

2.    Prior Report .......................................................................................................................... 10

3.    Management Comments ....................................................................................................... 11
THE DEPARTMENT OF ENERGY'S $700 MILLION SMART GRID
DEMONSTRATION PROGRAM FUNDED THROUGH THE AMERICAN
RECOVERY AND REINVESTMENT ACT OF 2009
Smart Grid      The Smart Grid Demonstration Program (Program) was
Demonstration   authorized by the Energy Independence and Security Act of 2007
Program         and amended by the American Recovery and Reinvestment Act of
                2009 (Recovery Act). The Program's goal is to demonstrate and
                further the advancement of the "smart grid," which generally refers
                to a class of technologies designed to enhance power grid
                operations. Under the Recovery Act, the Department of Energy
                (Department) allocated about $700 million to fund 42 cooperative
                agreements with for-profit and non-profit entities to demonstrate
                such technologies as energy storage systems and advanced
                metering infrastructure. Of the 42 projects, 10 had been awarded
                partial funding prior to the Recovery Act.

                Our audit examined the Department's management of 11 projects
                for which 9 recipients received Federal funds. The Department
                awarded these projects about $279 million, or about 40 percent of
                the Program's Recovery Act funding, and an additional $10 million
                in non-Recovery Act funding. We found the Department had not
                always managed the Program efficiently and effectively.
                Specifically, we identified reimbursements that were not
                adequately supported, problems with cost-share contributions, and
                funding made to potentially overlapping projects.

                                         Reimbursements

                Three of the nine recipients we reviewed had claimed, and the
                Department approved, requests for reimbursement that lacked
                supporting documentation that costs had been incurred by the
                recipients or were reasonable. Regulations require costs incurred
                to be reasonable and documented. Award terms and conditions
                also require recipients to claim only costs actually incurred.
                Notwithstanding these requirements, the Department had approved
                questionable reimbursements. For example:

                   •   One recipient was reimbursed about $7.3 million more than
                       allowed by the terms and conditions of the award. After
                       reviewing the recipient's records, we identified an
                       approximate $7.3 million difference between
                       reimbursements requested and actual expenditures by the
                       recipient. Contrary to the requirements, representatives of
                       the recipient informed us they had based their monthly
                       claims on both actual and estimated expenses and had not
                       subsequently reconciled estimates to actual. Further,
                       representatives told us that the discrepancy we identified
                       included a combination of costs invoiced by subcontractors

Page 1                                                          Details of Finding
             that had not yet been paid and costs reported as incurred by
             subcontractors that had not yet been invoiced to the
             recipient. As a result of our audit, the Department stated
             the recipient was making the appropriate monthly
             adjustments to balance reimbursements with actual costs.
             By the completion of our report, $4.9 million had been
             addressed and the remaining $2.4 million was to be
             addressed by June 2013.

         •   Another recipient was reimbursed about $2.6 million over
             the amount allowed for two projects. The recipient had
             also based its reimbursement requests on estimated, rather
             than actual costs, and had consistently over-billed the
             Department for costs incurred. As a result of our audit, the
             recipient provided the Department with a reconciliation
             dating back to the inception of its two projects funded by
             the Department, both awarded prior to the Recovery Act
             and supplemented with Recovery Act funding. The
             reconciliation revealed about $2.6 million in erroneous
             reimbursement claims to the Department, as well as a
             misreporting of an additional $2.6 million in the recipient's
             cost-share. In addition to taking action on the costs and
             cost-share erroneously claimed, the Department requested
             the recipient pay about $110,000 in interest owed on the
             overpaid amounts.

         •   A third recipient was reimbursed about $2.4 million for
             energy storage units not yet manufactured and the
             reimbursement requests lacked supporting documentation
             of incurred costs. Despite project costs totaling about $4
             million, including cost-share, the recipient had identified
             reliability and performance problems with the proposed
             technology, and stopped production at the facility before
             manufacturing the specific units for this project. Because
             the entire project revolved around manufacturing and
             demonstrating the units, which had not begun, we were
             concerned that the Department reimbursed about $2.4
             million in Federal funds and approved an additional $1.6
             million in cost-share claims for this project. Additionally,
             although the Department concluded the company's
             estimated costs were "reasonable" during negotiations, in
             our view, the Department had mistakenly agreed to
             reimburse the recipient based on the commercial price of
             units, rather than actual production costs, and had not
             tracked actual expenses. Further, the recipient, despite the
             lack of production, continued to charge the Department for
             other project costs. In response to our findings,

Page 2                                                Details of Finding
                 Department officials stated they were aware the
                 manufacturing of the units had not begun. However,
                 according to Department officials, the recipient had since
                 paid back about $1.7 million for the energy storage units.
                 For the remaining $700,000 we questioned, Department
                 officials stated detailed documentation was provided and
                 reviewed for invoiced costs. Based on that review, the
                 Department concluded that the remaining costs were
                 reasonable and allowable.

         The reimbursement issues we identified occurred for a number of
         reasons. Based on our discussions with recipients, we concluded
         that they had misunderstood the terms and conditions of their
         agreements regarding requesting reimbursement. Although the
         Program had established procedures over financial oversight of
         projects, we also found the financial oversight insufficient to
         ensure the accuracy and integrity of amounts paid. Specifically,
         for two of the recipients, Department officials were unaware
         reimbursement requests were based on estimates because they had
         not always obtained and reviewed invoices.

         After being presented with the results of our audit, the Department
         told us that it had initiated action to resolve all of the $12.3 million
         in questioned costs. As of the date of our report, the Department
         had recovered about $6.6 million and planned to recover an
         additional $5 million for payments made to recipients. For the
         remaining $700,000, as noted above, the Department determined
         the amounts to be reasonable and allowable.

                               Cost-Share Contributions

         Recipients had not always contributed their cost-share as required
         by Federal laws, regulations and agreements with the Department.
         Cost-share contributions are important to ensure recipients are
         fully invested in the success of their projects and Federal funds are
         leveraged to the maximum extent practicable. Section 988 of the
         Energy Policy Act of 2005 requires recipients participating in
         demonstration activities funded by the Department to contribute at
         least 50 percent of total project costs from non-Federal sources.
         However, we found the Department:

             •   Approved a recipient's plan to use about $28 million in
                 expected proceeds from the sale of an energy storage unit
                 manufactured in part with Federal funds and previous
                 recipient contributions to meet its overall $32.7 million
                 cost-share requirement. In its cost-share plan, the recipient



Page 3                                                      Details of Finding
             had included the sales proceeds of the unit and had not
             removed the Federal funds and previously claimed cost-
             share contributions from the calculation. Federal
             regulations specifically prohibit using Federal funds and
             previous recipient contributions toward meeting cost-share
             requirements. In response to our concerns, Department
             officials stated the recipient does not currently have a sales
             contract in place and the Department will closely monitor
             the transaction. However, because the expected proceeds
             account for such a large percentage of the total amount to
             be contributed, it is imperative the Department address the
             concerns before the end of the project. Department
             officials stated they would ensure the recipient understands
             that only the proceeds from the sale of the storage unit less
             the costs to fabricate/manufacture the unit can be
             recognized as cost-share and noted they are actively
             working with the recipient to address the cost-share
             concerns. However, this stipulation had yet to be defined
             in the agreement as of the completion of our review.

             Near the end of our audit, the recipient requested that the
             Department accelerate Federal funding of the project due to
             financial difficulties and to avoid additional layoffs after a
             33 percent staff reduction. In approving the accelerated
             funding, Department officials noted the action increased the
             likelihood that the project would be completed
             successfully. However, we noted that under the approved
             accelerated spending plan, Federal funds would, in fact, be
             exhausted before the technology is tested or demonstrated;
             thus, increasing the risk to the Department. According to
             Department officials, performance tests are scheduled for
             the first quarter of 2013, and the recipient was current in its
             cost-share contributions.

         •   Had not ensured that a recipient contributed the cost-share
             required by the terms and conditions of its cooperative
             agreement. The terms and conditions on the award
             included a specific schedule the recipient was to adhere to
             for the duration of the project for cost-share contributions.
             The agreement required the recipient to contribute 34
             percent of costs incurred during the first phase of the
             project — ending May 2011; however, as of September
             2011, the recipient had only contributed about $413,000 of
             the over $2.4 million in total project costs, or about 17
             percent. Under the agreement, the recipient was expected
             to increase its cost-share in later phases of the project to



Page 4                                                 Details of Finding
                reach an overall cost-share of 52 percent. While the
                Department agreed to pay a higher percentage in the initial
                phase of the project, the recipient's failure to meet the
                existing lower cost-share expectations raised concern about
                its ability to meet the higher cost-share in later phases.
                Department officials also stated that because the project
                was significantly delayed, they had not expected the
                recipient to contribute at the level required in the award
                (58 percent for the period May 2011 − 2012 and 81 percent
                for May 2012 − 2013). However, officials had not
                modified the award to specify revised contribution
                expectations and to ensure that the recipient eventually
                contributes the total amount required. Department officials
                stated that the recipient, as of the issuance of our draft
                report, had subsequently exceeded the required contribution
                level at the current stage of the project. We did not verify
                this information.

         Cost-share issues occurred because the Department had not
         adequately planned for, monitored or enforced cost-share
         provisions. For example, although Department officials were
         aware of the insufficient contributions of one recipient, they had
         neither modified the award to ensure the recipient ultimately
         contributed half of the funding, nor taken action to limit spending
         until the recipient could provide assurance of its ability to meet
         cost-share requirements.

                            Potential Overlapping Efforts

         We found the Department had provided a recipient about $14
         million under the Program and $2 million under the Advanced
         Research Projects Agency-Energy (ARPA-E) Grid-Scale
         Rampable Intermittent Dispatchable Storage Program for similar
         work. When initially awarded, Program funding supported the
         development of an energy storage unit that included the testing of
         materials for a carbon electrode component of the unit.
         Subsequently, the recipient changed its approach to develop a
         "metal electrode," a technology the recipient had received funding
         separately from ARPA-E to develop. After the change in
         approach, Department officials never revisited the level of funding
         being provided to the Smart Grid project in light of related funding
         provided to this recipient from ARPA-E. Further, although
         funding was awarded under the premise that the projects were
         different, we found numerous progress reports from the recipient
         that identified the same accomplishments for both projects.




Page 5                                                    Details of Finding
                  Even though both Smart Grid and ARPA-E officials were aware
                  the recipient had received funding for potentially overlapping
                  projects, they had not coordinated their oversight activities. We
                  did not identify in our limited test work any evidence the recipient
                  had charged both projects for the same expenses. However, we
                  remain concerned about the potential overlap between the projects.
                  As a result of our audit, ARPA-E officials required the recipient to
                  differentiate specific accomplishments and informed us they would
                  take proactive measures to eliminate any potential overlap, or the
                  appearance thereof, between the ARPA-E and Smart Grid
                  Demonstration projects. Office of Electricity Delivery and Energy
                  Reliability officials stated the technical project officer would
                  schedule semi-annual discussions with the ARPA-E technical
                  project officer, continue to monitor the project, and coordinate as
                  needed with ARPA-E officials.

RECOMMENDATIONS   In total, we identified about $12.3 million in questioned costs.
                  Without improvements in project management, the success of the
                  efforts awarded under the Recovery Act is ultimately at risk. The
                  lack of financial and project oversight increases the risk that fraud,
                  waste, and abuse can occur without detection. Further, the failure
                  of recipients to comply with their agreed-upon cost-share
                  contributions increased the risks associated with these projects.

                  Given the significant amount of funding remaining to be spent and
                  the issues found during our audit, the Department has an
                  opportunity to modify its monitoring efforts, and thereby, increase
                  the likelihood of successful outcomes for these projects. To help
                  achieve the objectives of the Program and the Recovery Act, we
                  recommend that the Assistant Secretary for Electricity Delivery
                  and Energy Reliability direct Program officials to:

                     1. Ensure adequate review of payments made to recipients;

                     2. Provide training to recipients on proper submission of
                        reimbursement packages;

                     3. Ensure that recipients contribute their required cost-share
                        from allowable sources; and,

                     4. Ensure the elimination of any potential overlapping funding
                        among awards authorized by various Department programs.

                  Additionally, we recommend that the contracting officers for the
                  Program:

                     5. Resolve the questioned amounts in our report.

Page 6                                          Recommendations and Comments
MANAGEMENT         Management concurred with the report's recommendations and
REACTION AND       indicated that corrective actions have been or would be
AUDITOR COMMENTS   initiated. Management stated annual invoice training will be
                   completed and the submission of invoices would be a specific
                   agenda topic for project kick-off meetings. Management also
                   noted that a program-wide review of cost-share for the Program
                   will be completed and the technical project officers for the
                   Program and ARPA-E would increase coordination. For the
                   questioned costs, management concurred with the recommendation
                   and as noted in our report, had initiated several actions to address
                   the $12.3 million in questioned costs.

                   However, management expressed concern with several statements
                   included in our finding about payments for energy storage units.
                   Specifically, management did not concur that it had mistakenly
                   agreed to reimburse the recipient based on the commercial price of
                   the energy storage units or that it was unaware the recipient had
                   not begun manufacturing the units. Management stated that it
                   maintained frequent contact with the recipient and had been
                   continually aware of the project's progress.

                   Management's comments and planned corrective actions are
                   responsive to our recommendations. Based on the actions taken by
                   management, we made changes to the report in addition to
                   Recommendation 5 to reflect the response and actions taken.
                   Further, in our finding on energy storage units, we clarified that the
                   Department was aware that the recipient had not begun
                   manufacturing. However, we disagree that the Department had not
                   mistakenly agreed to reimburse the recipient based on the
                   commercial price of the units. Under the terms and conditions of
                   the award, the recipient was to be reimbursed for only costs
                   actually incurred. The Department paid the recipient based on the
                   commercial price of the unit without verifying that actual costs had
                   been incurred or that the recipient had provided supporting
                   documentation to verify allowability and reasonableness of
                   reimbursements. The fact that the recipient had not manufactured
                   the units and was reimbursed for almost 2 years before the
                   Department received repayment of the $1.7 million, reaffirms our
                   position that the Department mistakenly agreed to reimburse the
                   recipient.

                   Management's comments are included in their entirety in
                   Appendix 3.




Page 7                                                                      Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the Smart
              Grid Demonstration Program (Program) funded through the
              American Recovery and Reinvestment Act of 2009 (Recovery Act)
              had been properly managed.

SCOPE         This audit was performed between April 2011 and January 2013, at
              the Department of Energy's (Department) Headquarters in
              Washington, DC, and the National Energy Technology Laboratory
              (NETL) in Morgantown, West Virginia and Pittsburgh,
              Pennsylvania. In addition, we conducted site visits on 11 projects
              with 9 recipients.

METHODOLOGY   To accomplish the objective, we:

                 •   Obtained and reviewed relevant laws and regulations
                     related to implementation of the Recovery Act and
                     financial assistance awards administration;

                 •   Reviewed the Funding Opportunity Announcement, merit
                     review information and selection documentation;

                 •   Conducted site visits to nine recipients to observe assets
                     purchased and future sites of projects, interviewed officials
                     and analyzed financial transactions and implementation of
                     financial assistance requirements as prescribed by the terms
                     and conditions of the awards;

                 •   Reviewed invoices submitted for reimbursements and
                     conducted onsite testing of books and records with each
                     recipient;

                 •   Obtained access to the Department's Strategic Integrated
                     Procurement Enterprise System and reviewed individual
                     award files for the 11 projects;

                 •   Interviewed project officers and contracting personnel for
                     each of the nine recipient's awards; and,

                 •   Conducted interviews and meetings with Department
                     Program officials.
              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objectives. We believe the
              evidence obtained provides a reasonable basis for our findings and


Page 8                                     Objective, Scope and Methodology
Appendix 1 (continued)
                    conclusions based on our audit objectives. Accordingly, we
                    assessed significant internal controls and compliance with laws and
                    regulations to the extent necessary to satisfy the audit objective. In
                    particular, we assessed the Department's implementation of the
                    GPRA Modernization Act of 2010 and determined that it had
                    established performance measures for the management of the
                    Program. Because our review was limited, it would not necessarily
                    have disclosed all internal control deficiencies that may have
                    existed at the time of our audit. Finally, we conducted an
                    assessment of computer-processed data relevant to our audit
                    objective and found it to be reliable.

                    An exit conference was held with the Department on
                    January 16, 2013.




Page 9                                           Objective, Scope and Methodology
Appendix 2
                                      PRIOR REPORT

  •   Audit Report on The Department's Management of the Smart Grid Investment Grant
      Program (OAS-RA-12-04, January 2012). The audit revealed several opportunities to
      enhance management of the Smart Grid Investment Grant Program. Specifically,
      although prohibited by Federal regulations, Department of Energy officials approved one
      grantee's use of $1.8 million in Federally-sourced funds to meet its cost-share obligation.
      In addition, the audit revealed that one recipient was reimbursed twice, in the amount of
      $300,000, for transportation costs. Further, three of the five recipient cyber security
      plans reviewed were incomplete, and did not always sufficiently describe security
      controls and how they were implemented. Because the audit found that the cumulative
      effect of these issues could potentially jeopardize the goals of the Smart Grid Investment
      Grant Program, four recommendations were made.




Page 10                                                                             Prior Report
Appendix 3

             MANAGEMENT COMMENTS




Page 11                            Management Comments
Appendix 3




Page 12      Management Comments
Appendix 3




Page 13      Management Comments
Appendix 3




Page 14      Management Comments
Appendix 3




Page 15      Management Comments
Appendix 3




Page 16      Management Comments
                                                                 IG Report No. OAS-RA-13-08

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

   1. What additional background information about the selection, scheduling, scope, or
      procedures of the audit or inspection would have been helpful to the reader in
      understanding this report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clear to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report that would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
